APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals for
the Sixth Circuit (February 27, 2020) ............... 1a
Opinion of Justice Readler Concurring in Part
and in the Judgment
(February 27, 2020) ...................................... 26a
Judgment of the United States Court of
Appeals for the Sixth Circuit
(February 27, 2020).................................... 35a
Memorandum Order of the United States
District Court for the Middle District of
Tennessee (July 5, 2018) .................................. 37a
Order of the United States District Court for the
Middle District of Tennessee
(July 5, 2018) .................................................... 62a
REHEARING ORDER
Order of the United States Court of Appeals for
the Sixth Circuit Denying Petition for
Rehearing En Banc (April 20, 2020) ................ 64a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE SIXTH CIRCUIT
(FEBRUARY 27, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
J.H., BY CONSERVATOR BETTY HARRIS,

Plaintiff-Appellant,
v.
WILLIAMSON COUNTY, TENNESSEE;
STEVE MCMAHAN; BETSY ADGENT,

Defendants-Appellees.

________________________
No. 18-5874

Appeal from the United States District Court
for the Middle District of Tennessee at Nashville.
No. 3:14-cv-02356—Aleta Arthur Trauger,
District Judge.
Before: COLE, Chief Judge,
STRANCH and READLER, Circuit Judges.
COLE, Chief Judge.
J.H., a 14-year-old boy and pretrial detainee, was
placed in segregated housing in Williamson County’s
juvenile detention facility after three other juveniles
alleged that he threatened to assault them. J.H.
alleges that his placement in segregated housing

App.2a
from November 17 to December 19, 2013, amounted to
unconstitutional punishment through the means of
solitary confinement. He also alleges that a Williamson
County detention monitor, Juan Cruz, sexually
assaulted him during this period; that this assault
was a direct result of Williamson County’s failure to
train Cruz; and that during his placement in segregated housing, detention facility officials failed to
provide adequate medical care. The district court
granted summary judgment in favor of Williamson
County and officials Steve McMahan and Betsy Adgent.
We affirm.
I. Background
Plaintiff J.H., a minor, suffers from Pediatric
Autoimmune Neuropsychiatric Disorder Associated
with Streptococcal Infections (“PANDAS”). According to
his doctor, PANDAS often manifests itself in multiple
psychiatric symptoms, such as an abrupt onset of
Obsessive-Compulsive Disorder (“OCD”), impulsivity,
eating disorders, depression, dysgraphia, and problems
with sleep. J.H.’s mother, Betty Harris (“Harris”),
avers that J.H. began exhibiting extreme behaviors
in April 2013, after exposure to strep bacteria from a
housekeeper caused his PANDAS diagnosis to flare
up. And beginning in May 2013, J.H. had a series of
run-ins with Tennessee’s Williamson County Juvenile
Court and its Juvenile Detention Center.
In October 2013, J.H. traveled to Maryland to
receive intravenous immunoglobulin therapy (“IVIG”)—
a treatment that reboots a patient’s immune system—
from a pediatric neurologist, Dr. Elizabeth Latimer,
who specializes in treating children with PANDAS.
According to Dr. Latimer, it usually takes four to six

App.3a
months for a child with PANDAS to start improving
after receiving IVIG treatment. During this time, she
recommends that patients, like J.H., remain in a
center that specializes in treating children with neuropsychiatric illnesses and behavioral challenges.
Two days after his treatment in Maryland, J.H.
was placed in Williamson County’s Juvenile Detention
Center (“JDC”) after allegedly taking and crashing
his mother’s car. He was kept in JDC’s dormitory
section from October 13 to October 25, 2013, without
incident. While J.H. was detained, Harris continued to
seek an inpatient center for J.H.’s PANDAS treatment,
as Dr. Latimer recommended.
On October 17, 2013, J.H., through counsel, petitioned the juvenile court to be furloughed into his
mother’s care so that he could receive treatment for
his PANDAS at a neurological treatment facility.
The court accepted the petition and released J.H. on
furlough on October 25. But when the court discovered,
in November 2013, that J.H. had not entered the
facility because of an insurance dispute, it ordered
that J.H. be returned to JDC. At all times that follow,
J.H. was a 14-year-old pretrial detainee.
On November 17, 2013, two days after J.H. returned to JDC, three juveniles alleged that J.H. had
become angry, destroyed property, punched a window,
and verbally threatened them with sexual assault if
they reported his conduct. After the alleged incident,
one of the juveniles recanted his statement and
instead claimed that the story was fabricated in
order to get J.H. removed from the dormitory. The other
two juveniles did not recant.

App.4a
Because of the allegations, JDC officials moved
J.H. from the dormitory to a single cell on November
17, 2013, where he remained until December 19, 2013.
On November 17, JDC officials filled out a Detention
Center Incident Report, which detailed the allegations
against J.H and stated that the “Action Taken” in
response to the incident was that J.H. “was moved to
a single cell.” While JDC’s written policy provides that
a juvenile charged with a facility violation resulting
in segregation is entitled to a hearing before the
Disciplinary Committee, JDC officials did not provide
J.H. with a disciplinary hearing.
During J.H.’s segregation from November 17 to
December 19, 2013, JDC officials housed him in an
eleven-by-seven-foot cell. The officials did not allow
J.H. to interact with any other juveniles. They initially
allowed J.H. short daily visits with his parents (approximately 30 minutes), until November 21, 2013, when
the officials limited J.H.’s visits with his mother to
30 minutes per week. JDC officials allowed J.H.
limited time in the “rec yard”—an area of approximately 24-by-24 feet surrounded by concrete walls,
razor wire above, and a single basketball hoop—and
in the T.V. room, at their discretion. But time both in
the rec yard and the T.V. room were spent alone.
J.H. alleges that, during his time in segregation, his
mental health deteriorated.
On December 7, 2013, J.H. asked JDC detention
monitor Juan Cruz if he could clean around the facility
rather than stay in his cell. Cruz agreed. While J.H.
was cleaning, Cruz allegedly followed J.H. into a
closet, where there were no security cameras, and
sexually assaulted J.H. J.H. reported the assault to
another JDC official. JDC suspended Cruz pending

App.5a
investigation of the sexual assault and ultimately
terminated him when prosecutors filed criminal
charges against him related to the incident with J.H.
At a hearing in juvenile court on December 9,
2013, Judge Sharon Guffee ruled upon J.H.’s parents’
request to alter J.H.’s terms of confinement. Judge
Guffee held that J.H. should remain in segregated
detention because J.H. did not “get along with the
boys in his dormitory cell” and to prevent J.H. from
discussing Cruz’s alleged sexual assault with others
in such a way that might negatively impact the ongoing
investigation.
During J.H.’s time at JDC, he was treated by multiple medical professionals in relation to his PANDAS
diagnosis: he had an appointment with his psychiatrist,
received an examination by JDC’s nurse, and received
medication from his pediatric neurologist. None of
these officials requested that JDC make any accommodations for J.H.’s medical needs. On December 19,
2013, J.H. was released from detention—and his
segregated cell—into the custody of his father.
About a year after his release, J.H., by and
through his mother, Betty Harris, filed a lawsuit
against Williamson County, Detention Monitor Juan
Cruz, Juvenile Detention Center Supervisor Steve
McMahan, Director of Juvenile Services Betsy Adgent,
and Judge Sharon Guffee. The lawsuit, brought under
42 U.S.C. § 1983, alleged in relevant part that the
defendants violated his Fourteenth Amendment rights
in relation to J.H.’s allegations of solitary confinement,
failure to provide adequate medical and mental health
services, and sexual assault.

App.6a
On May 22, 2017, the district court issued a partial
summary judgment order in favor of Williamson
County, Judge Guffee, Adgent, and McMahan. In
analyzing the defendants’ motions, the district court
divided J.H.’s time in solitary confinement into two
periods: (1) J.H.’s detention from November 17 to
December 8, 2013, before any court had ordered that
J.H. be placed in segregation; and (2) his detention
from December 9 to December 19, 2013, following
Judge Guffee’s order that J.H. remain in segregation.
Regarding the second period of confinement, the court
found that Judge Guffee was entitled to absolute
immunity for J.H.’s placement in segregation after
her order, and Adgent and McMahan were eligible
for quasi-judicial immunity for their role in J.H.’s
housing after December 9 because they were required
to comply with Judge Guffee’s court order.
The district court issued another summary judgment ruling on July 5, 2018, after both J.H. and the
defendants had filed summary judgment motions. In
this order, the court granted McMahan, Adgent, and
Williamson County’s motions for summary judgment
as to the first period of solitary confinement as well. It
found that a claim against Adgent could not succeed
because “Plaintiff had conceded [she] was not responsible for housing and classification decisions.” (Summ.
J. Order, R. 384, PageID 13253.) The court further
held that solitary-confinement-related claims against
McMahan and Williamson County could not proceed
because J.H. had not shown “that it was clearly established in 2013 that placing a juvenile detainee in a
single cell would violate his constitutional right,”
which was required to overcome qualified immunity
and to sustain a failure-to-train Monell claim against

App.7a
a municipality. (Id. at 13253-58.) Additionally, although
J.H. argued in his motion for summary judgment that
he had been placed in solitary confinement without
due process, the court granted the defendants’ motion
as to this claim because J.H. failed to plead any
procedural due process claim in his complaint.
The court also granted Adgent and McMahan’s
motions for summary judgment on J.H.’s claims for
failure to provide medical and mental health care.
While the court agreed that J.H.’s severe mental health
issues had been documented, it nonetheless found
that because none of J.H.’s mental health care providers requested special accommodations for him, J.H.
was unable to show that the care provided to him
during his detention at JDC was grossly inadequate.
Finally, the court addressed the claims relating
to the alleged sexual assault. The court found that
genuine disputes of material fact existed on J.H.’s
claim against Cruz and permitted that claim to go
forward. But it granted the remaining defendants’
motions for summary judgment on J.H.’s claims
related to the assault. The court held that the claims
against Adgent and McMahan for failure to train and
supervise Cruz were in their official capacities only,
and thus these claims were redundant of the claim
against the county; and J.H. could not succeed on his
claim against Williamson County, as he had failed to
show that the county knew of any substantial risk of
Cruz sexually assaulting J.H.
The district court then granted J.H.’s motion to
deem judgment final as to Williamson County,
McMahan, and Adgent pursuant to Federal Rule of
Civil Procedure 54(b), allowing J.H. to appeal while

App.8a
proceedings for the remaining claim against Cruz are
stayed. J.H. timely appealed.
The following decisions by the district court are
now before us: (1) the district court’s grant of summary
judgment for McMahan and Williamson County on
J.H.’s claim that they violated J.H.’s Fourteenth
Amendment rights by placing him in solitary confinement from November 17 to December 8, 2013, the
period before Judge Guffee’s order; (2) the district
court’s grant of summary judgment for Williamson
County on J.H.’s claim of being placed in solitary
confinement from December 9 to 19, 2013, the period
following Judge Guffee’s order; (3) the district court’s
dismissal of J.H.’s procedural due process claim; (4) the
district court’s grant of summary judgment for Adgent
and McMahan on J.H.’s denial of health care claim;
and (5) the district court’s grant of summary judgment
for Williamson County on J.H.’s claim that the county
was deliberately indifferent to the substantial risk of
harm from Cruz.
II. Analysis
A.

Standard of Review

On appeal, we review the “grant of summary
judgment de novo.” Hanover Ins. Co. v. American
Eng’g Co., 33 F.3d 727, 730 (6th Cir. 1994). Summary
judgment is appropriate when “there is no genuine
dispute as to any material fact,” thereby allowing the
court to decide that the moving party “is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
“A genuine dispute of material fact exists ‘if the
evidence is such that a reasonable jury could return
a verdict for the nonmoving party.’” Peffer v. Stephens,

App.9a
880 F.3d 256, 262 (6th Cir. 2018) (quoting Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986)).
B.

Solitary Confinement Claims

On appeal, J.H. challenges the district court’s
grant of summary judgment in favor of McMahan for
the period of solitary confinement prior to December
9, and its grant of summary judgment in favor of
Williamson County for the entire period of solitary
confinement—November 17 to December 19. J.H. also
argues that his procedural due process claim was
properly pleaded. We address each argument in turn
below.
1. Fourteenth Amendment Substantive Due
Process Claim Against McMahan for Solitary
Confinement from November 17 to December
8, 2013
The district court held that J.H. had sufficiently
alleged McMahan’s personal involvement in J.H.’s
solitary confinement, but disposed of J.H.’s Fourteenth
Amendment claim against McMahan on grounds of
qualified immunity. “Determinations of qualified
immunity require us to answer two questions: first,
whether the officer violated a constitutional right;
and second, whether that right was clearly established
in light of the specific context of the case.” Hayden
v. Green, 640 F.3d 150, 153 (6th Cir. 2011). Because
we can answer the qualified immunity questions in
any order, see Pearson v. Callahan, 555 U.S. 223, 236
(2009), we begin with the question of whether McMahan violated a constitutional right and then turn
to whether that right was clearly established.

App.10a
i. Violation of a Constitutional Right
J.H. has alleged that JDC officials, acting at
McMahan’s direction, kept him in solitary confinement
as punishment for the November 17 incident, and
that while in segregation he was fully isolated. Under
the first prong of our qualified immunity analysis,
we ask “whether [J.H.]’s allegations, if true, establish
a constitutional violation.” Hope v. Pelzer, 536 U.S.
730, 736 (2002) (emphasis added).1
The Supreme Court established in Bell v. Wolfish
that, under the due process clause, “a detainee may
not be punished prior to an adjudication of guilt.”
441 U.S. 520, 535 (1979). Under Bell, a pretrial
detainee can demonstrate that he was subjected to
unconstitutional punishment in either of two ways:
(1) by showing “an expressed intent to punish on the
part of the detention facility officials,” or (2) by showing
that a restriction or condition is not rationally related
to a legitimate government objective or is excessive
in relation to that purpose. Id. at 538-39; see also
Kingsley v. Hendrickson, 135 S. Ct. 2466, 2473 (2015).
The “expressed intent to punish” prong proscribes
an intent to punish for the alleged crime causing
incarceration prior to an adjudication of guilt. See
Bell, 441 U.S. at 535. It also prohibits officials from
1 The district court held that there were genuine disputes of
material fact as to these allegations by J.H., particularly “whether
J.H. was placed in a single cell as punishment” and “how much
social interaction J.H. had while housed in the single cell.”
(Summ. J. Order, R. 384, PageID 13251-52.) In assessing the first
prong of the qualified immunity analysis, we do not disturb the
district court’s determination on these factual points. Instead,
we ask whether J.H. can show a constitutional violation if his
allegations were true. See Hope, 536 U.S. at 736.

App.11a
subjectively seeking to punish detainees simply because
they are detainees, see id. at 539, or on the basis of
vengeful or other illegitimate interests, see Bistrian
v. Levi, 696 F.3d 352, 375 (3d Cir. 2012) (holding the
plaintiff had sufficiently alleged a substantive due
process violation under the “expressed intent to punish”
prong where placement of the plaintiff in solitary
confinement was allegedly a vindictive response to a
challenge brought by the plaintiff’s lawyer). This prong
does not, however, categorically prohibit discipline
imposed by jail officials for infractions committed
while in pretrial detention. See, e.g., Rapier v. Harris,
172 F.3d 999, 1002-03 (7th Cir. 1999); Kanu v. Lindsey,
739 F. App’x 111, 116 (3d Cir. 2018); Stamper v.
Campbell Cnty., 415 F. App’x 678, 678-81 (6th Cir.
2011). Here, J.H. alleges that he was placed in solitary
confinement in direct response to the November 17
disciplinary incident. This alleged action, without
more, does not run afoul of the first prong of Bell.
The relevant question is thus under Bell’s second
prong: whether J.H.’s placement in segregation was
“rationally related to a legitimate nonpunitive governmental purpose and whether [it] appear[s] excessive
in relation to that purpose.” Bell, 441 U.S. at 561; see
also Collazo-Leon v. U.S. Bureau of Prisons, 51 F.3d
315, 318 (1st Cir. 1995). In answering the first part of
this question, we agree that McMahan has put forth a
legitimate governmental purpose: “maintain[ing] safety
and security in the facility.” (McMahan Br. 42.) As the
Supreme Court explained in Bell, “maintaining institutional security and preserving internal order and
discipline are essential goals” of a detention facility.
441 U.S. at 546. Temporary placement of J.H. in

App.12a
solitary confinement, given his accused disciplinary
infraction, appears rationally related to this purpose.
Yet where McMahan’s argument falters is on the
question of whether the discipline here was excessive.
See Williamson v. Stirling, 912 F.3d 154, 176 n.18
(4th Cir. 2018) (explaining “disciplinary measures
based on a pretrial detainee’s misconduct in custody”
must be “proportional thereto” in order to avoid
qualifying as unconstitutional “‘punishment’ within
the meaning of Bell”); see also Collazo-Leon, 51 F.3d
at 318; Bistrian, 696 F.3d at 374. Jail administrators
are afforded “wide-ranging deference in the adoption
and execution of policies and practices that in their
judgment are needed to preserve internal order and
discipline and to maintain institutional security.”
Bell, 441 U.S. at 547. Yet this deference has its limits,
and does not permit a detention facility to impose
conditions that are excessively “harsh . . . to achieve
objectives that could be accomplished [with] . . .
alternative and less harsh methods.” Id. at 539 n.20.
In considering whether the discipline imposed
on J.H. was excessive, we are mindful of J.H.’s age;
his known mental health issues; and the duration and
nature of his confinement. We weigh these factors
against the disciplinary infraction of which J.H. was
accused and the governmental purpose for which the
discipline was imposed. When considering “the totality
of [these] circumstances,” we conclude that the discipline imposed was excessive relative to its purpose and
thus violated J.H.’s Fourteenth Amendment rights as
described in Bell. See Hubbard v. Taylor, 399 F.3d
150, 159-60 (3d Cir. 2005).
First, we must consider that J.H. was a 14-yearold juvenile. As the Supreme Court has described,

App.13a
“youth is . . . a moment and ‘condition of life when a
person may be most susceptible to influence and to
psychological damage.’” Miller v. Alabama, 567 U.S.
460, 476 (2012) (quoting Eddings v. Oklahoma, 455
U.S. 104, 115 (1982)). A growing chorus of courts have
recognized the unique harms that are inflicted on
juveniles when they are placed in solitary confinement.
See, e.g., Doe by and through Frazier v. Hommrich,
No. 3-16-0799, 2017 WL 1091864, at *2 (M.D. Tenn.
Mar. 22, 2017) (granting a preliminary injunction
preventing a detention facility from placing juveniles
in solitary confinement as punishment or discipline
and describing how “courts around the country have
found increased protections for juveniles and persons
with diminished capacities from inhumane treatment
under the Eighth and Fourteenth Amendments”);
V.W. by and through Williams v. Conway, 236 F.
Supp. 3d 554, 583, 590 (N.D.N.Y. 2017) (issuing a
preliminary injunction to enjoin a county and its
officials “from imposing 23-hour disciplinary isolation
on juveniles” and recognizing “there is a broad
consensus among the scientific and professional
community that juveniles are psychologically more
vulnerable than adults”); Turner v. Palmer, 84 F.
Supp. 3d 880, 884 (S.D. Iowa 2015) (denying qualified
immunity to officials who placed a juvenile with
psychiatric issues in solitary confinement and noting
that “[t]raditionally, juvenile detainees are afforded
greater constitutional protection”). As a 14-year-old,
J.H. was uniquely vulnerable to the harmful effects
of solitary confinement, and thus his placement in
segregation was a particularly harsh form of discipline.
Second, it was well-known to McMahan before
placing J.H. in solitary confinement that J.H. had been

App.14a
diagnosed with and required treatment for PANDAS,
which is associated with several psychiatric symptoms.
Placement of a mentally-ill detainee in solitary confinement “raises a genuine concern that the negative
psychological effects of his segregation will drive him
to self-harm.” Wallace v. Baldwin, 895 F.3d 481, 485
(7th Cir. 2018). As the Third Circuit has explained,
confinement of a detainee should be assessed “in light of
his mental illness,” recognizing the “growing consensus”
that solitary confinement “can cause severe and traumatic psychological damage, including anxiety, panic,
paranoia, depression, post-traumatic stress disorder,
psychosis, and even a disintegration of the basic sense
of self identity.” Palakovic v. Wetzel, 854 F.3d 209,
225 (3d Cir. 2017). Here, J.H.’s documented mental
health issues made him particularly vulnerable to
the effects of solitary confinement.
Third, we are mindful of the nature and duration
of J.H.’s segregation. See Williamson, 912 F.3d at
180 (“[T]he Bell Court expressly considered, inter
alia, the duration of the punitive conditions.”) (citing
Bell, 441 U.S. at 543); Bistrian, 696 F.3d at 374
(considering the “nature of [the pretrial detainee’s]
confinement” in determining whether the disciplinary
segregation was excessive). J.H was in solitary
confinement for several weeks—from November 17 to
December 8, 2013—before Judge Guffee ruled on his
placement in segregation. J.H. was housed in an
eleven-by-seven-foot cell where he was not allowed to
interact with any other juveniles. These 21 days of
isolation are of noteworthy duration, as “[t]here is
not a single study of solitary confinement wherein
non-voluntary confinement that lasted for longer
than 10 days failed to result in negative psychological

App.15a
effects.” Williams v. Sec’y Pa. Dep’t of Corrs., 848 F.3d
549, 566 (3d Cir. 2017) (quoting Craig Haney &
Mona Lynch, Regulating Prisons of the Future: A

Psychological Analysis of Supermax and Solitary
Confinement, 23 N.Y.U. Rev. L. & Soc. Change 477,
531 (1997)). The Third Circuit noted a study showing
that “even a few days of solitary confinement will
predictably shift the electroencephalogram (EEG)
pattern toward an abnormal pattern characteristic of
stupor and delirium.” Id. at 567 (quoting Stuart
Grassian, Psychiatric Effects of Solitary Confinement,
22 Wash. U. J.L. & Pol’y 325, 331 (2006)). And as
Justice Kennedy has described, it has “long . . . been
understood” that there is a “human toll wrought by
extended terms of isolation.” Davis v. Ayala, 135 S.
Ct. 2187, 2209 (2015) (Kennedy, J., concurring).

In sum, considering J.H.’s age, mental health,
and the duration and nature of his confinement, we
conclude that the punishment imposed on J.H. was
excessive. When weighing the penalty imposed against
his disciplinary infraction—in which he made verbal
threats but did not physically injure another detainee—
it is apparent that his punishment was disproportionate
in light of the stated purpose of maintaining institutional security. See Williamson, 912 F.3d at 179-81
(holding a reasonable factfinder could conclude a
detainee’s lengthy placement in solitary confinement
“because of a single incident of unrealized and unrepeated threats” was excessive). Any momentary need
to separate J.H. from the specific detainees whom he
had threatened on November 17 does not justify the
extended duration in which McMahan subjected J.H.
to solitary confinement and completely isolated him
from all contact with other juveniles. This discipline

App.16a
was excessive given the infraction that J.H. was
accused of and the unique vulnerabilities he possessed—namely his age and mental health status.2 We
therefore hold that, assuming J.H.’s allegations to be
true, his Fourteenth Amendment substantive due
process rights were violated when he was held in
solitary confinement from November 17 to December
8, 2013.
ii. Clearly Established Right
The second question is whether the constitutional
right in question was clearly established at the time
of the alleged violation. In order for the right to be
clearly established, “[then-]existing precedent must
have placed the . . . constitutional question beyond
debate.” Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011);
2 We do not mean to imply that each of these factors—that is, a
detainee being a juvenile and mentally ill must be present for
the imposition of solitary confinement to be unconstitutionally
excessive under Bell. See, e.g., Williamson, 912 F.3d at 181 (holding
that simply the length of the plaintiff pretrial detainee’s solitary
confinement could lead a “reasonable factfinder [to] conclude”
that it was “excessive relative to his infractions”); Bistrian, 696
F.3d at 374 (concluding that given the “nature of [the plaintiff’s]
confinement” it could be deemed excessive). However, where
these factors are present, they must be relevant to our analysis.
A court cannot consider the punishment of a child while
ignoring the fact that he is a child, nor can a court pretend that
the effects of solitary confinement are the same regardless of a
detainee’s mental health status. See Miller, 567 U.S. at 474
(explaining that “imposition” of “penalties on juvenile offenders
cannot proceed as though they were not children”); Palakovic,
854 F.3d at 225-26 (reversing a district court’s dismissal of an
Eighth Amendment claim brought on behalf of a mentally ill 23year-old who was placed in solitary confinement where plaintiffs
had sufficiently alleged the “conditions there were inhumane
for him in light of his mental illness”).

App.17a

see also Dist. of Columbia v. Wesby, 138 S. Ct. 577,
589 (2018).

We cannot say that the right at issue was established with sufficient specificity as to hold it clearly
established as of 2013, the time of these incidents.
Many of the cases recognizing what a punishing
experience placement in solitary confinement can be—
especially for juveniles and those with mental health
issues—have been issued after 2013.
Thus, McMahan is entitled to qualified immunity,
and we are obliged to affirm the district court’s grant
of summary judgment on this claim.
2. Fourteenth Amendment Substantive Due
Process Claim against Williamson County for
Solitary Confinement from November 17 to
December 8, 2013
J.H. also sued Williamson County, arguing that
its policies and customs were the “moving force” for
the “constitutional violations perpetrated against”
J.H. and that the county was deliberately indifferent
“in the supervision and training of juvenile detention
personnel.” (Compl., R. 1, PageID 3.) Although “[m]unicipalities are not vicariously liable for the actions of
their employees” under 42 U.S.C. § 1983, Bible
Believers v. Wayne County, 805 F.3d 228, 260 (6th
Cir. 2015) (en banc), a plaintiff can establish municipal
liability under § 1983 by showing he was injured
pursuant to a municipality’s custom or policy, Monell
v. Department of Social Services of City of New York,
436 U.S. 658, 694 (1978).
One basis for a Monell claim is a municipality or
county’s failure to train its employees. As the Supreme

App.18a
Court concluded in City of Canton v. Harris, 489 U.S.
378 (1989):
[I]t may happen that in light of the duties
assigned to specific officers or employees the
need for more or different training is so
obvious, and the inadequacy so likely to result
in the violation of constitutional rights, that
the policymakers of the city can reasonably
be said to have been deliberately indifferent to
the need. In that event, the failure to provide
proper training may fairly be said to represent a policy for which the city is responsible,
and for which the city may be held liable if
it actually causes injury.

Id. at 390. In Shadrick v. Hopkins County, 805 F.3d 724

(6th Cir. 2015), we held that plaintiffs can establish
liability under a failure-to-train theory based on “‘a
single violation of federal rights, accompanied by a
showing that [the county] has failed to train its
employees to handle recurring situations presenting
an obvious potential’ for a constitutional violation.”
Id. at 738-39 (quoting Bd. of Cnty. Comm’rs of Bryan
Cnty. v. Brown, 520 U.S. 397, 409 (1997)). “‘[O]bvious
potential for such a violation’ has two elements: It
must be obvious that the failure to train will lead to
certain conduct, and it must be obvious (i.e., clearly
established) that the conduct will violate constitutional
rights.” Arrington-Bey v. City of Bedford Heights,
858 F.3d 988, 995 (6th Cir. 2017). “The absence of a
clearly established right spells the end of [a plaintiff’s]
Monell claim.” Id .
J.H. argues it was obvious that Williamson
County’s failure to train its employees on the classification and housing of juveniles would lead to

App.19a
unconstitutional uses of “punitive solitary confinement
for pre-trial detainee juveniles.” (Appellant Br. 41.)
Furthermore, he argues it was obvious (or clearly
established) that such punitive uses of solitary confinement would be unconstitutional. Having already
concluded that J.H.’s substantive due process right
was not clearly established as of 2013, we must also
conclude that J.H.’s Monell claim against Williamson
County cannot succeed. See Arrington-Bey, 858 F.3d
at 995.
We thus affirm the district court on this claim.
3. Fourteenth Amendment Substantive Due
Process Claim Against Williamson County
for Solitary Confinement from December 9 to
December 19, 2013
J.H. also appeals the district court’s grant of
summary judgment for Williamson County on the
claim relating to his solitary confinement after Judge
Guffee ordered on December 9 that J.H. remain in
segregation. J.H. argues that neither Guffee’s judicial
immunity nor McMahan’s quasi-judicial immunity
extends to a municipality. See Monell, 436 U.S. at
701 (“[M]unicipal bodies sued under § 1983 cannot be
entitled to an absolute immunity, lest our decision
that such bodies are subject to suit under § 1983 ‘be
drained of meaning.’”) (quoting Scheuer v. Rhodes, 416
U.S. 232, 248 (1974)).
Williamson County does not contend that it is
eligible for judicial or quasi-judicial immunity—rather,
it correctly argues that no basis for municipal liability
remains after the court order on December 9, 2013,
because Judge Guffee is not a policymaker whose
decisions can create municipal liability. This conforms

App.20a
with our precedent. We have held that the “alleged
unconstitutional actions taken by a juvenile court
judge are not ‘policies’ of the county for which liability
could attach under Monell”; instead, Judge Guffee’s
order that J.H. remain in segregation was a “judicial
decision[ ]” that was only “reviewable on appeal to
the Tennessee appellate courts.” Johnson v. Turner,
125 F.3d 324, 335-36 (6th Cir. 1997). Nor could
Adgent’s or McMahan’s adherence to that order create
municipal liability because neither retained final
policymaking authority regarding whether to segregate J.H. after the order was issued. See Pembaur v.
City of Cincinnati, 475 U.S. 469, 481 (1986).
We therefore affirm the district court on this claim.
4. Fourteenth Amendment Procedural Due
Process Claim Against McMahan and Williamson County
J.H. next argues that the district court erroneously
dismissed his procedural due process claim against
McMahan and Williamson County on the basis that
it was not properly pleaded. The defendants argue that
allowing J.H. to pursue a procedural due process claim
not found in J.H.’s complaint would prejudice them
because it would “subject [them] to unfair surprise.”
(Williamson Cnty. Br. 40.)
“The Federal Rules of Civil Procedure . . . provide
for liberal notice pleading at the outset of the litigation.”

Tucker v. Union of Needletrades, Indus. & Textile
Emps., 407 F.3d 784, 788 (6th Cir. 2005). Accordingly,

even if a new claim appears during discovery, “liberal
amendment of the complaint is provided for by Rule
15(a) of the Federal Rules of Civil Procedure, which
states that leave to amend the complaint ‘shall be

App.21a
freely given when justice so requires.’” Id. But “[o]nce
a case has progressed to the summary judgment
stage,” as is true here, “the liberal pleading standards
under . . . [the Federal Rules] are inapplicable.” Id.
(quoting Gilmour v. Gates, McDonald & Co., 382
F.3d 1312, 1315 (11th Cir. 2004)).
J.H.’s complaint alleges that the decision to put
him in segregation “occurred in violation of [the
Prison Rape Elimination Act (PREA)] and Tennessee
Department of Corrections minimum requirements of
confinement.” (Compl., R. 1, PageID 7-8.) It is unclear
from the complaint, however, which portions of the
PREA and the Tennessee Department of Corrections
minimum requirements of confinement that J.H. alleges
were violated. And even though J.H.’s complaint alleges
violations of the Fourteenth Amendment, there are
no specific allegations of procedural deficiencies.
Thus, we affirm the district court’s holding that
J.H. did not properly plead a procedural due process
claim.
C.

Failure to Provide Medical and Mental Health
Care Claims Against Adgent and McMahan

J.H. also argues that Adgent and McMahan
failed to provide adequate medical and mental health
care and were deliberately indifferent to his serious
medical needs. Specifically, he alleges that “there
was ample evidence to put Adgent and McMahan on
notice of [the fact] that J.H. was suffering from
serious mental health issues when he arrived at
detention.” (Appellant Br. 52.) J.H. further alleges
that “Adgent and McMahan ignored the needs of J.H.
with ample evidence in front of them that he was a

App.22a
child suffering from mental deterioration” while in
their care. (Id. at 53.)3
To prove deliberate indifference to his serious
medical needs, J.H. must “demonstrate both: (1) the
existence of a ‘sufficiently serious’ medical need; and
(2) that defendants ‘perceived facts from which to
infer substantial risk to the prisoner, that [they] did
in fact draw the inference, and that [they] then
disregarded that risk.’” Hopper v. Plummer, 887 F.3d
744, 756 (6th Cir. 2018) (quoting Comstock v. McCrary,
273 F.3d 693, 702-03 (6th Cir. 2001)).
The district court found that “it was reasonable
for Adgent and McMahan to follow the instructions
of medical providers concerning J.H.’s medication and
to believe that any additional counseling or mental
health treatment would be set up by J.H.’s parents or
guardian ad litem or ordered by his medical providers.”
(Summ. J. Order, R. 384, PageID 13262.) We agree.
It is undisputed that J.H. met with and received
medication from multiple medical professionals during
his time at JDC, and that none of these officials
requested that JDC make any accommodations for
J.H.’s medical needs. Thus, the defendants’ actions
were taken in reasonable “rel[iance] on medical
judgments made by medical professionals responsible
for prisoner care.” Graham ex rel. Estate of Graham
v. Cnty. of Washtenaw, 358 F.3d 377, 384 (6th Cir.
3 We do not read J.H.’s brief on appeal as also raising a claim
against Williamson County for failure to provide medical care,
nor has he provided a basis for why there would be Monell
liability here. Thus, we need not address the arguments raised
in Williamson County’s brief averring that J.H. cannot succeed
on such a claim against the county.

App.23a
2004) (quoting Ronayne v. Ficano, No. 98-1135, 1999
WL 183479, at *3 (6th Cir. Mar. 15, 1999)).
We therefore affirm the district court on this claim.
D.

Failure to Train and Supervise Cruz Claim
Against Williamson County

Finally, J.H. alleges that Williamson County
was deliberately indifferent to the substantial risk
that Cruz would sexually assault him, and that it
failed to supervise and train Cruz.4 In order to
establish municipal liability under an “inaction” theory,
as J.H. alleges, he must show: (1) “the existence of a
clear and persistent pattern of sexual abuse by [JDC]
employees; (2) notice or constructive notice on the
part of [Williamson County]; (3) [Williamson County]’s
tacit approval of the unconstitutional conduct, such
that their deliberate indifference in their failure to
act can be said to amount to an official policy of
inaction; and (4) that [Williamson County] was the
‘moving force’ or direct causal link in the constitutional
4 J.H.’s brief, in passing, also asks this court to hold that a reasonable jury could find Adgent and McMahan were “individually”
deliberately indifferent to the substantial risk posed by Cruz.
(See Appellant Br. 72.) We need not address the merits of this
claim. The district court held that “there are no claims for failure
to train and supervise against Adgent and McMahan individually,”
as “Plaintiff has agreed” that these claims are only alleged
against Adgent and McMahan in their official capacity. (Summ.
J. Order, R. 384, PageID 13264.) The district court correctly
dismissed these official capacity claims as superfluous of the claim
against the county. See Foster v. Michigan, 573 F. App’x 377,
390 (6th Cir. 2014) (“Where the entity is named as a defendant,
an official-capacity claim is redundant.”). J.H. cannot raise new
individual-capacity claims, which he previously agreed he was
not asserting, in his appellate brief.

App.24a
deprivation.” Doe v. Claiborne Cnty., 103 F.3d 495,
508 (6th Cir. 1996). According to J.H., Williamson
County was deliberately indifferent to the risk that
Cruz would sexually assault J.H. when it failed to
properly train him and properly conduct a background
check, which would have revealed that Cruz is bisexual.
While the details of Cruz’s alleged assault on J.H.
are troubling, J.H. has not met his burden to establish
municipal liability. We have held in unpublished
cases that “opportunity alone, without reason to
suspect that it will lead to a constitutional violation,
does not establish deliberate indifference.” Mize v.
Tedford, 375 F. App’x 497, 501 (6th Cir. 2010); see
also Doe v. Magoffin Cnty. Fiscal Ct., 174 F. App’x
962, 970 (6th Cir. 2006). There was no clear pattern
of sexual abuse at JDC, and Cruz had no history of
misconduct at JDC. And there is no authority to
support the offensive claim that a sexual assault is the
obvious consequence of an official’s sexual orientation.
J.H. argues that Mize and Magoffin are inapposite
because, in those cases, the defendants were not
charged with assuming responsibility of the plaintiffs
in the way that Cruz’s job required. But that does
not change the fact that “[t]he intentional, violent act
that” Cruz is alleged to have “performed far outside
the scope of his duties” was not “something that was
‘obvious’ to occur.” Magoffin Cnty. Fiscal Ct., 174 F.
App’x at 970. Furthermore, J.H. has not shown a
“direct causal connection” between the failure to
train Cruz and his alleged assault of J.H.—in other
words, it is far from clear that any lack of training was
the “moving force” behind Cruz’s decision to sexually
assault a child. Claiborne Cnty., 103 F.3d at 508-09.
Thus, we affirm the district court on this claim.

App.25a
III. Conclusion
For the foregoing reasons, we affirm the district
court’s grant of summary judgment to defendants
Williamson County, Steve McMahan, and Betsy
Adgent.

App.26a
OPINION OF JUSTICE READLER CONCURRING
IN PART AND IN THE JUDGMENT
(FEBRUARY 27, 2020)
CHAD A. READLER, Circuit Judge, concurring in
part, and in the judgment. The public employees
operating the Williamson County Juvenile Detention
Center faced a dilemma. Responsible for the care of
up to a dozen minors, those officials had under their
supervision one minor, J.H., who, due to mental
health concerns, was a threat to himself and others.
To remedy the situation and protect the juvenile
detainee population, the facility for a time housed
J.H. away from other detainees, in a single cell. A
state juvenile court judge approved that arrangement
and ordered that it continue for an additional period
to allow for further evaluation of J.H.
I concur with much of the majority opinion,
including its holding that the conduct of these public
safety officials did not violate a clearly established
constitutional right. But I respectfully disagree with
the majority’s assessment that the conduct nonetheless
ran afoul of substantive due process principles. In
reaching that conclusion, the majority tailors its
analysis to the unique facts before us: the multi-week
confinement of a fourteen-year-old suffering from
mental illness, one so severe that it is “associated
with several psychiatric symptoms.” A heartbreaking
episode, we all agree, for both J.H. and his family.
As this case aptly demonstrates, however, ensuring
safety in a detention facility sometimes requires
difficult decisions. Put yourself in the shoes of these
public servants. Their duties, never easy in the best
of times, were made especially challenging by reports

App.27a
of J.H.’s threatening behavior. The officials moved
J.H. away from others to ensure safety and to avoid a
potential confrontation. Any other response would
have allowed J.H. to remain a threat to his dorm
mates, other juveniles, facility staff, and indeed himself.
1. To the majority, these efforts constituted impermissible punishment, in violation of the substantive
due process principles described in Bell v. Wolfish, 441
U.S. 520 (1979). As I will explain later, I do not agree
that the restrictions on J.H. amounted to impermissible punishment under Bell. But we need not even reach
that question, for it is doubtful Bell was intended to
apply in the context of an official’s effort to remedy
misconduct committed while in custody. Bell, all
acknowledge, places limits on pretrial punishment
for acts committed before one is detained. Punishing
a detainee simply for the alleged criminal conduct
that led to his detention, after all, would impermissibly
put the retributory cart before the adjudicatory horse,
invoking constitutional considerations. See id. at
535-36. Yet whether the standard “condition[s] of
confinement” applicable to all pre-trial detainees
housed in a specific facility are so restrictive as to
constitute punishment for pre-incarceration conduct
is all that Bell addressed. Id. at 531. The case says
nothing about the measures officials may take to
address an individual’s rules violations while in
custody, for which some measure of punishment may
be appropriate. See id. at 536-37 (assessing whether
certain restraints were appropriate and justified for
the general purpose of ensuring a detainee’s presence
at trial for the charges leading to detention).
The majority seemingly acknowledges as much.
It notes that Bell “proscribes an intent to punish for

App.28a
the alleged crime causing incarceration prior to an
adjudication of guilt.” And it observes that Bell does
not “categorically prohibit discipline imposed by jail
officials for infractions committed while in pretrial
detention.” But the majority then ties these notable
limitations only to Bell’s first prong, not its second.
All agree that Bell’s first prong addresses instances
where impermissible intent to punish can be derived
from an “expressed intent,” whereas Bell’s second prong
addresses whether, in the absence of an express indication, a restriction’s illegitimacy or irrationality indicates
it is in fact a form of impermissible punishment.
Bell’s two prongs are thus complimentary means for
measuring whether the restriction in question was
imposed with an intent to “punish for the alleged
crime causing incarceration prior to an adjudication
of guilt.” See Graham v. Connor, 490 U.S. 386, 398
(1989) (noting that use of the word “punishments”
clearly suggests an inquiry into subjective motivations).
Bell’s second prong does not independently guide
officials in how they remedy in-custody misconduct,
with the first prong governing pre-incarceration conduct. Rather, both prongs measure the permissibility
of the restriction in question only against “the alleged
crime causing incarceration.” Bell simply did not
consider scenarios where the purported punishment
was imposed based upon the detainee’s misconduct
while detained. See, e.g., Collazo-Leon v. U.S. Bureau
of Prisons, 51 F.3d 315, 317-18 (1st Cir. 1995) (noting
that Bell did not deal with punishment of in-custody
conduct and that Bell’s second prong looks to “an intent
to punish the detainee for prior unproven criminal
conduct”).

App.29a
That is not to say J.H. has no constitutional
means available for testing the restrictions placed
upon him for his in-custody misconduct. He enjoys
procedural due process rights that would apply if he
were punished, see Martucci v. Johnson, 944 F.2d
291, 294-95 (6th Cir. 1991), although the majority
rightly concludes that no such violation was sufficiently
alleged here. Pretrial detainees more generally may
enjoy other well-defined substantive rights in this
context as well. See, e.g., Kingsley v. Hendrickson,
135 S. Ct. 2466 (2015) (excessive force); City of Revere
v. Mass. Gen. Hosp., 463 U.S. 239 (1983) (inadequate
medical care); Farmer v. Brennan, 511 U.S. 825
(1994) (deliberate indifference); see also Richko v.
Wayne County, 819 F.3d 907, 915 (6th Cir. 2016)
(noting that “pretrial detainees are entitled to the
same Eighth Amendment rights as other inmates”
(quoting Thompson v. County of Medina, 29 F.3d
238, 242 (6th Cir. 1994))). And in the rare case where
the punishment for in-custody conduct is so severe that
it clearly was inspired not by in-custody misconduct,
but instead by the crime that led to incarceration,
Bell may provide relief if the means used are excessive
to a legitimate purpose. See 441 U.S. at 538-39. But,
it bears repeating, in generally limiting what a
facility may do for the broad purpose of ensuring a
detainee’s presence at trial, Bell’s prohibition on
punishing pretrial detainees for pre-incarceration
conduct says nothing about the limits placed on
public officials who are responding to a disobedient,
threatening detainee. See, e.g., Ford v. Bender, 768
F.3d 15, 24-25 (1st. Cir. 2014) (noting that the court’s
inquiry does not end upon finding punishment of a
pretrial detainee for in-custody misconduct, because
“Bell was not written to address a ‘situation where

App.30a
discrete sanctions were imposed on individual pretrial
detainees as discipline for specific in-house violations’”
(quoting Collazo-Leon, 51 F.3d at 317)).
2. Even if one were to accept the majority’s
expansive reading of Bell’s second prong, substantive
due process does not tie the hands of public officials
in weighing the many considerations before them as
they resolve a difficult episode. As Bell reminds us,
the “central objective of prison administration” is
“safeguarding institutional security.” 441 U.S. at 547
(citations omitted). In view of that “central objective,”
we routinely approve of restrictions employed to curtail
detainee misconduct and support institutional security.
Id. (explaining that this “central objective” may require
limits even on detainees’ “specific constitutional guarantee[s]”).
Adopting the majority’s reading of Bell, to establish
impermissible punishment, J.H. must show either that
there was no legitimate, nonpunitive purpose for the
restrictions placed upon him, or that those restrictions
were excessive for their assigned purpose. Id. at 538-39.
In making that assessment, we must not forget that
“the problems that arise in the day-to-day operation
of a corrections facility are not susceptible of easy
solutions,” id. at 547, and we thus must honor detention officials’ judgment over “a court’s idea of how best
to operate a detention facility.” Id. at 539 (citations
omitted). Mindful of the training and experience
enjoyed by those officials, in matters involving the
operation of a detention facility, we hold plaintiffs to
a “heavy” burden. Id. at 561-62. “[I]n the absence of
substantial evidence in the record to indicate that
the officials have exaggerated their response to these
considerations, courts should ordinarily defer to their

App.31a
expert judgment in such matters.” Id. at 548 (quoting
Pell v. Procunier, 417 U.S. 817, 827 (1974) (emphasis
added)); see also T.S. v. Doe, 742 F.3d 632, 639 (6th
Cir. 2014) (collecting cases showing that Supreme Court
precedent has “emphatically reinforced the hands-off
approach courts must apply”).
To my eye, J.H.’s detention was not excessive to
the legitimate safety interests involved. Even reading
the record in the light most favorable to J.H., one is
struck by the security and safety challenges faced by
the public servants at the Juvenile Detention Center.
Those officials were responsible for the well-being of up
to a dozen minors, each of whom was placed in detention for threatening conduct of varying proportions.
One of the minors, J.H., entered the facility in the
midst of a behavioral and psychological crisis. Multiple
petitions were filed against him in juvenile court for
serious behavioral problems, including attempts to
harm himself and others. He stole cars and crashed
them, not once, but twice. And he had been placed in
juvenile detention previously, for varying periods of
time.
Unfortunately, this self-destructive behavior continued when J.H. returned to pretrial detention in
November 2013. Just two days in, J.H.’s dorm mates
reported disturbing conduct to facility officials: J.H.
had destroyed property by ripping a mattress and a
shoe, punched the window with his hand, and threatened to harm and rape his dorm mates if they
reported the conduct. That behavior was consistent
with observations by J.H.’s own physician, who had
recommended inpatient treatment for J.H. because
J.H. “continue[d] to exhibit significant physically and
verbally aggressive behaviors that [were] creating

App.32a
extreme safety challenges at home for him and his
family.” Facility staff assessed the situation, recorded
the reported incident, and moved J.H. to a single cell,
apart from other children. Taking all of this together,
there was a legitimate basis for believing J.H. was a
threat to others, and for acting accordingly, to ensure
safety given the specific confines of the detention
facility. No case, to my knowledge, requires facility
officials to allow open hostility between detainees,
threatening their safety and indeed that of the officials
themselves, all in the name of substantive due process.
To the contrary, we afford those officials “wide-ranging
deference in the adoption and execution of policies and
practices that in their judgment are needed to preserve
internal order and discipline and to maintain institutional security.” Bell, 441 U.S. at 547 (citing cases).
Given these legitimate safety concerns, the restrictions employed were not excessive. J.H. was placed in
a single cell, away from other minors. The majority
notes that J.H. “was not allowed to interact with any
other juveniles.” But facility officials, in achieving
their prophylactic aim, took steps to limit J.H.’s
isolation. J.H. had phone calls with his parents. He
had regular in-person visits with his father. He had
regular visits with his mother as well, until she tried
to bring prescription medications into the facility
without prior authorization, at which point her visits
were limited to thirty minutes a week. J.H. also met
with a doctor, a psychologist, his attorney, and his
guardian ad litem. He conversed with the guards. He
had books available in his cell, brought to him by his
mother. And he was allowed to enjoy certain privileges
outside of his cell, including visits to the “rec yard,”
exercising, watching T.V., and doing his homework

App.33a
in the hallway. These measures sought to minimize
the chances that J.H. would harm himself, and to
honor the security concerns of the other detainees,
who themselves enjoy constitutional protections from
deliberate indifference of their detention officials.
See, e.g., Farmer, 511 U.S. at 837 (holding officials
may be liable for deliberate indifference where they
are aware of, and disregard, facts informing them of
a substantial risk to inmate health or safety); see
also Richko, 819 F.3d at 918 (finding genuine dispute
as to deliberate indifference where jail officials placed
inmate with history of violent assault and mental illness with cellmate whom he later assaulted, rather
than placing him in a single cell). That J.H., for a
time, could not be around other juveniles strikes me
as a reasonable “judgment call” by the detention
facility, given the many respective interests at stake.
See Bell, 441 U.S. at 562; see also id. at 546-47 (noting
the “central . . . corrections goal[ ] is the institutional
consideration of internal security within the corrections
facilities themselves” (quoting Pell, 417 U.S. at 823)).
It may be, as the majority contends, that some
social science cautions against the use of solitary
confinement, at least for longer periods of time, perhaps
for minors in particular. Of course, many restrictions
employed in the detention context may well be viewed
in the same cautionary light, when utilized in a reckless
manner. But there was nothing reckless about how
these officials balanced the interests of J.H. with
those of the other detainees. And more broadly,
solitary confinement as a means of remedial action
remains “a useful or necessary” discretionary option
available to safety officials in their efforts “to protect
prison employees or other inmates.” Davis v. Ayala,

App.34a
135 S. Ct. 2187 (2015) (Kennedy, J., concurring); see
also Higgs v. Carver, 286 F.3d 437, 438 (7th Cir. 2002)
(allowing prisoner segregation as “a jail’s failure to
take steps to prevent harm to the prisoner or to other
prisoners might give rise to meritorious suits against
the jail” (citation omitted)).
Back to Bell. There, the Supreme Court approved
of a host of detainee-related practices, including
intrusive body cavity searches, 441 U.S. at 558,
and emphasized the myriad steps officials operating
detention facilities may take to maintain security, id.
at 540, 547, guard against inmate fights, id. at 555, and
maintain discipline, id. at 546, even if those practices
are “discomforting.” Id. at 540; see also Blackmon v.
Sutton, 734 F.3d 1237, 1242, 1244 (10th Cir. 2013)
(Gorsuch, J.) (indicating that restraint chair may be
appropriate where there is a “legitimate penological
purpose,” such as “when the detainee bears a weapon
he refuses to release or otherwise poses a grave threat
to himself or others” (citations omitted)). And those
practices, it bears adding, need not be the least
restrictive means available to accomplish an official’s
security objectives. Block v. Rutherford, 468 U.S. 576,
589 (1984) (upholding a complete ban on contact visitation even for low-risk detainees).
Taking all of this together, a safety-based restriction must simply be legitimate and not excessive for
that purpose. See Bell, 441 U.S. at 538-39. Where
legitimate factors support the restriction, the “limited
scope of the judicial inquiry” is at an end. Block, 468
U.S. at 589 (citing Bell, 441 U.S. at 554). As well
intentioned as is the majority, we nonetheless may not
substitute our judgment for that of detention officials.

App.35a
JUDGMENT OF THE UNITED STATES COURT
OF APPEALS FOR THE SIXTH CIRCUIT
(FEBRUARY 27, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
J.H., BY CONSERVATOR BETTY HARRIS,

Plaintiff-Appellant,
v.
WILLIAMSON COUNTY, TENNESSEE;
STEVE MCMAHAN; BETSY ADGENT,

Defendants-Appellees.

________________________
No. 18-5874

Appeal from the United States District Court
for the Middle District of Tennessee at Nashville.
Before: COLE, Chief Judge,
STRANCH and READLER, Circuit Judges.
THIS CAUSE was heard on the record from the
district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is
ORDERED that the district court’s grant of summary
judgment to Williamson County, Steve McMahan,
and Betsy Adgent is AFFIRMED.

App.36a
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Clerk

App.37a
MEMORANDUM ORDER OF THE
UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF TENNESSEE
(JULY 5, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
________________________
J.H., by Conservator BETTY HARRIS,

Plaintiff,
v.
WILLIAMSON COUNTY, TENNESSEE,
BETSY ADGENT, STEVE MCMAHAN,
and JUAN CRUZ,

Defendants.

________________________
No. 3-14-2356

Before: Aleta A. TRAUGER,
United States District Judge.
Pending before the court are Plaintiff’s Motion for
Summary Judgment (Docket No. 305); Defendant
Williamson County’s Motion for Judgment on the
Pleadings or, Alternatively, Motion for Summary Judgment (Docket No. 310); Defendant McMahon’s Motion
for Judgment on the Pleadings or, Alternatively, Motion
for Summary Judgment (Docket No. 311); and Defendant Adgent’s Motion for Judgment on the Pleadings or,

App.38a
Alternatively, Motion for Summary Judgment (Docket
No. 312).1
Factual Background
Plaintiff J.H. was, at all relevant times, a minor
child residing in Williamson County, Tennessee. This
action was brought on J.H.’s behalf by his mother,
Betty Harris, who was later appointed his Conservator.
Defendant Williamson County owns and operates the
Williamson County Juvenile Detention Center (“the
Center”). Defendant Cruz was an employee at the
Center during the relevant time period. Defendant
McMahon was Supervisor of the Center, and Defendant
Adgent was Director of Juvenile Services for the
Williamson County Juvenile Court. Defendant Guffee
was the Williamson County Juvenile Court Judge.
On multiple occasions in 2013, J.H. was incarcerated in the Center. This action, brought pursuant to
42 U.S.C. § 1983, alleges that, while J.H. was detained
in the Center in November and December of 2013,2
Defendants violated his rights under the Fourteenth
Amendment to the U.S. Constitution through alleged
solitary confinement, failure to provide adequate medical and mental health care, and an alleged sexual
assault by Defendant Cruz.
Because he was a pretrial detainee at all relevant
times, Plaintiff’s Eighth Amendment claims have
1 Defendant Cruz has not filed a dispositive motion.
2 The Complaint in this action was filed on December 16, 2014.
(Docket No. 1). Although all Defendants raised the statute of
limitations as an affirmative defense (see Docket Nos. 22 and
23), no one has raised the statute of limitations as an argument
on summary judgment.

App.39a
been dismissed. Docket No. 217. Plaintiff’s original
claim for violations of the Americans with Disabilities
Act, claims based upon certain decisions of Juvenile
Court Judge Guffee3 and claims based upon any
actions by the other Defendants to implement Guffee’s
December 9, 2013 judicial decision have also been
dismissed. Id.
In response to Defendants’ Motion for Summary
Judgment, Plaintiff conceded that there is insufficient
evidence to support his claim concerning the hiring of
Defendant Cruz. Docket No. 334, p. 6. Plaintiff also
represented that he is no longer pursuing a claim for
violation of the Prison Rape Elimination Act (“PREA”).
Id., p. 21. Further, Plaintiff stated that he has no
authority to establish that a detained juvenile has a
constitutional right to educational services. Id., p. 22.
Plaintiff conceded that his claim for punitive damages
against Williamson County should be dismissed (Id., p.
25), but the Complaint does not seek punitive damages
from any Defendant (Docket No. 1, p. 22), so that claim
is not before the court. Plaintiff also has conceded that
his state law claims for negligent and intentional
infliction of emotional distress should be dismissed.
Docket No. 337, p. 24.
Accordingly, Plaintiff’s claims related to the hiring
of Defendant Cruz, claims for violation of the PREA,
claims for failure to provide educational services, and
state law claims for negligent and intentional infliction
of emotional distress will be dismissed.
Because the parties have filed statements of
undisputed facts in accordance with Fed. R. Civ. P. 56,
3 All claims against Defendant Guffee have been dismissed.

App.40a
and the court is considering evidence outside the
pleadings, the court will address Defendants’ motions
as motions for summary judgment. The operative
Complaint is the original Complaint (Docket No. 1).
The remaining claims are claims for violations of the
Fourteenth Amendment based upon alleged solitary
confinement, failure to provide medical and mental
health services, and the alleged sexual assault.
Summary Judgment
Summary judgment is appropriate where there
is no genuine issue as to any material fact and the
movant is entitled to judgment as a matter of law.
Fed. R. Civ. P. 56(c); Pennington v. State Farm Mut.
Automobile Ins. Co., 553 F.3d 447, 450 (6th Cir.
2009). The party bringing the summary judgment
motion has the initial burden of informing the court
of the basis for its motion and identifying portions of
the record that demonstrate the absence of a genuine
dispute over material facts. Rodgers v. Banks, 344
F.3d 587, 595 (6th Cir. 2003). The moving party may
satisfy this burden by presenting affirmative evidence
that negates an element of the non-moving party’s
claim or by demonstrating an absence of evidence to
support the nonmoving party’s case. Id.
In deciding a motion for summary judgment, the
court must review all the evidence, facts and inferences
in the light most favorable to the nonmoving party.
Van Gorder v. Grand Trunk Western Railroad, Inc.,
509 F.3d 265, 268 (6th Cir. 2007). The court does not,
however, weigh the evidence, judge the credibility of
witnesses, or determine the truth of the matter.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 249
(1986). The court determines whether sufficient

App.41a
evidence has been presented to make the issue of fact
a proper jury question. Id. The mere existence of a
scintilla of evidence in support of the nonmoving party’s
position will be insufficient to survive summary judgment; rather, there must be evidence on which the
jury could reasonably find for the nonmoving party.
Rodgers, 344 F.3d at 595.
Section 1983
Plaintiff brings this action pursuant to 42 U.S.C.
§ 1983, which provides a private right of action against
anyone who subjects any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights or privileges secured by the
Constitution and laws of the United States. Rehbueg
v. Paulk, 132 S. Ct. 1497, 1501 (2012). A person
suing under this statute must demonstrate the denial
of a constitutional right caused by a defendant acting
under color of state law. Epperson v. City of Humboldt,
183 F.Supp.3d 897, 903 (W.D. Tenn. 2016); Carl v.
Muskegon County, 763 F.3d 592, 595 (6th Cir. 2014).
The Eighth Amendment provides an inmate the
right to be free from cruel and unusual punishment.
Richmond v. Huq, 885 F.3d 928, 937 (6th Cir. 2018).
The Due Process Clause of the Fourteenth Amendment
provides the same protections to pretrial detainees. Id.4
4 As a pretrial detainee, a plaintiff is protected by the Fourteenth
Amendment from conduct that the Eighth Amendment would
prohibit as against individuals who have been tried, convicted
and sentenced. Thompson v. Cheatham County Jail, 2018 WL
1920415 at * 3 (M.D. Tenn. Apr. 24, 2018); Richko v. Wayne Cty,
Mich., 819 F.3d 907, 915 (6th Cir. 2016). The Sixth Circuit has
made clear that, under the Fourteenth Amendment, pretrial
detainees are entitled to the same Eighth Amendment rights as
other inmates. Id.

App.42a
Proving an Eighth Amendment (or, in this case,
Fourteenth Amendment) claim requires that the plaintiff make a showing of deliberate indifference. Villegas
v. Metropolitan Gov’t of Nashville and Davidson Cty.,
709 F.3d 563, 568 (6th Cir. 2013). Deliberate indifference has two components, objective and subjective.
The objective component demands a showing that
the detainee faced a substantial risk of serious harm
and requires the court to assess whether society
considers the risk about which the prisoner complains
to be so grave that it violates contemporary standards
of decency. Id. (quoting Helling v. McKinney, 113 S.
Ct. 2475 (1993)).
As to the subjective component, a plaintiff must
show that the defendant had a “sufficiently culpable
state of mind.” Villegas, 709 F.3d at 569 (quoting
Harrison v. Ash, 539 F.3d 510, 518 (6th Cir. 2008)).
This state of mind is shown where the official knows
of, and disregards, the substantial risk of serious
harm facing the detainee. Id. A prison official acts
with deliberate indifference when he knows of, and
disregards, an excessive risk to inmate health or safety.
Baynes v. Cleland, 799 F.3d 600, 618 (6th Cir. 2015).
An official must both be aware of facts from which
the inference could be drawn that a substantial risk
of serious harm exists, and he must also draw that
inference. Id.5

5 Deliberate indifference is characterized by obduracy or wantonness; it cannot be predicated on negligence, inadvertence or good
faith error. Reilly v. Vadlamudi, 680 F.3d 617, 624 (6th Cir. 2012).

App.43a
Solitary Confinement
Plaintiff’s Motion
J.H. alleges that, on November 15, 2013, he was
incarcerated at the Center and housed in a dormitorytype cell with other juveniles. He contends that, on
November 17, 2013,6 he was removed from the
dormitory cell to a single cell, based upon an incident
report from three other juveniles at the Center about
his behavior. J.H. argues that this housing placement
was a form of punishment that was cruel and unusual
in violation of his constitutional rights.7 J.H. submits
that he had no meaningful social contact while in the
single cell.
Defendants, on the other hand, argue that J.H.
was placed in a single cell as a safety and preventative
measure—safety for himself and for other detainees—
not for punitive or disciplinary reasons. Defendants
contend that, while in the single cell housing, J.H.
continued to interact with Center employees and had
visits from his guardian ad litem, his attorney, a
psychologist, an advocate, and his parents. Defendants
assert that, even though he was in a single cell, J.H.
was allowed time in the TV room, recreation time,
and time in the hallways to work on homework.
6 On December 9, 2013, Judge Guffee ordered that J.H. remain
segregated. Allegations related to that Order and actions taken
by Defendants to implement it have already been dismissed.
Docket No. 217. Therefore, this Opinion addresses J.H.’s single
cell placement from November 17 until December 9, 2013, only.
7 Plaintiff also contends that Defendants placed him in “solitary
confinement” without procedural due process, but that claim
was not pled in the Complaint.

App.44a
There are genuine issues of material fact as to
whether J.H. was placed in a single cell as punishment
or for safety reasons.8 See Docket No. 333-1 at ¶¶ 5358, 67-69, 73-74 and 162; Docket No. 344 at ¶¶ 52,
83-84, 86, 88, 92, 295-98, 301-02, and 307-08. J.H.
claims that he was put in a single cell as punishment,
but McMahan, Adgent and Judge Guffee all testified
that J.H. was never segregated for disciplinary purposes
or punishment.
Moreover, there are genuine issues of material
fact as to how much social interaction J.H. had while
housed in the single cell.9 See Docket No. 333-1 at
¶¶ 59-64, 162 and 164; Docket No. 344 at ¶¶ 105-06,
237, 242-43, 255-59, 305 and 307-10. For example,
J.H. claims he was in “full isolation,” while Defendants
have testified that he continued to interact with
Center employees and had visits from his guardian
ad litem, his attorney, a psychologist, an advocate,
and his parents. As noted above, Defendants assert
that, even though he was in a single cell, J.H. was
allowed time in the TV room, recreation time, and
time in the hallways to work on homework.
Plaintiff is not entitled to summary judgment on
this issue because there are genuine issues of material
fact as to what actually happened and why.
8 Plaintiff himself posits that determining whether restrictions
imposed on Plaintiff during his detention constituted punitive
measures implicating due process or were permissible regulatory
restraints requires the trier of fact to consider whether detention facility officials expressed an intent to punish. Docket No.
306, p. 13. That issue involves disputed factual questions.
9 Plaintiff admits these facts are in dispute. Docket No. 334, pp.
16 and 19.

App.45a
The Individual Defendants’ Motion
Steve McMahan and Betsy Adgent first argue
that Plaintiff has failed sufficiently to allege their
personal involvement in this alleged constitutional violation. The Complaint’s allegations against McMahan
and Adgent, specifically with regard to the alleged
solitary confinement, are sparse. Paragraph 17 alleges
that Guffee, Adgent and McMahan “acted in concert
allowing the continuing course of conduct violating
the constitutional rights of the plaintiff.” Paragraph
33 alleges that “J.H. was pulled from the dorm cell
and put in a solitary cell.” It does not attribute this
conduct to any specific person. Finally, paragraph 66
states that the “defendants specifically and knowingly
violated the State and Federal standards regarding the
solitary confinement of the child,” again attributing
this conduct to no specific defendant.10
Plaintiff has conceded that Adgent was not responsible for housing and classification decisions in
the Center. Docket No. 333-1, ¶ 203. Therefore, his
“solitary confinement” claim against Defendant Adgent
will be dismissed. Defendants have stated that the
housing and classification decisions in the Center were
the responsibility of the detention supervisor and
intake officers. Id. Defendant McMahan was the
detention supervisor. Plaintiff’s allegations against
Defendant McMahan concerning this issue are sufficient to allege his personal involvement.
10 The Complaint alleges, in paragraph 70, that Defendant Adgent,
after speaking with Judge Guffee, denied the parents access to
the child and left him in solitary confinement after he had been
assaulted. To the extent this paragraph references Guffee’s
December 9, 2013 Order, claims related to that Order have
been dismissed.

App.46a
McMahan contends, however, that he is entitled
to qualified immunity from this claim. The doctrine
of qualified immunity protects government officials
from liability for civil damages insofar as their conduct
does not violate clearly established statutory or constitutional rights of which a reasonable person would
have known. Pearson v. Callahan, 129 S. Ct. 808, 815
(2009). Although the defendant bears the burden of
pleading this defense, the plaintiff must show that
the defendant is not entitled to qualified immunity.
Hayden v. Green, 640 F.3d 150, 153 (6th Cir. 2011).
Determinations of qualified immunity require the court
to answer two questions: (1) whether the officer violated
a constitutional right, and (2) whether that right was
clearly established in light of the specific context of
the case. Hayden, 640 F.3d at 153.11
McMahan denies that J.H. was placed in “solitary
confinement.” Nonetheless, he argues that, even if
J.H.’s detention could properly be characterized as
such, the law in late 2013 was not “clearly established”
concerning a juvenile detainee’s right not to be placed
into a solitary cell. The law has changed considerably
on this issue since 2013, and McMahan contends
that these new measures represent a significant
departure from the standards in effect in 2013.
Plaintiff cites a 2010 case, Graham v. Florida,
560 U.S. 48 (2010), to argue that the standard of care
for juveniles is different than the standard of care for
11 “The judges of the district court and the courts of appeals
should be permitted to exercise their sound discretion in deciding
which of the two prongs of the qualified immunity analysis
should be addressed first in light of the circumstances in the
particular case at hand.” Pearson, 129 S. Ct. at 818.

App.47a
adults. That case, however, does not stand for the proposition that juveniles should never be placed in a single
cell. In Graham, the Court held that a juvenile offender
who did not commit homicide could not be sentenced
to life without parole. Other cases prior to 2013
prohibited the death penalty for juveniles. See, e.g.,
Roper v. Simmons, 543 U.S. 551 (2005). Plaintiff does
not cite a case decided before 2013 involving alleged
solitary confinement of a juvenile detainee.
Plaintiff’s reliance upon Davis v. Ayala, 135 S.
Ct. 2187 (2015) is misplaced. That case was decided
two years after the alleged misconduct here, so the
holdings in Davis could not have been “clearly established” in 2013. Moreover, Plaintiff’s citation is to the
concurrence by Justice Kennedy, in which Kennedy
admitted that his separate writing had no direct
bearing on the precise legal questions presented by the
case. The inmate in Davis was a death row prisoner
and not a juvenile. The precise details of the inmate’s
conditions of confinement in Davis were not in the
record. Kennedy simply argued that consideration of
the issue of solitary confinement was needed. Id. at
2210. He also stated that “prison officials must have
discretion to decide that in some instances temporary,
solitary confinement is a useful or necessary means
to impose discipline and to protect prison employees
and other inmates.” Id. Kennedy’s concerns are further
evidence that, even in 2015, the law as to the constitutionality of solitary confinement, even for adult
prisoners, was not clearly established. Plaintiff also
cites numerous publications, studies and expert
scholarship to support his claim that, in 2013, it was
clearly established that solitary confinement for
juveniles was unconstitutional. Law review articles and

App.48a
United Nations Resolutions are not “clearly established”
legal authority for purposes of qualified immunity.
This court held, in 2017, that solitary confinement
of juveniles in government custody for punitive or
disciplinary reasons, especially for extended periods
of time and especially for youth who may suffer from
mental illness, violates the Eighth Amendment’s prohibition against the inhumane treatment of detainees.
Doe v. Hommrich, 2017 WL 1091864 at * 2 (M.D. Tenn.
March 22, 2017). However, Doe was decided more
than three years after the behavior alleged in this case,
and the court limited its holding in Doe to solitary
confinement for punitive or disciplinary reasons.
Plaintiff has not shown that it was clearly established in 2013 that placing a juvenile detainee in a
single cell would violate his constitutional right to be
free from cruel and unusual punishment.12 For
purposes of qualified immunity, even if McMahon did
violate J.H.’s constitutional rights, which the court
does not find, those rights were not clearly established.
Therefore, McMahan is entitled to qualified immunity,
and Plaintiff’s “solitary confinement” claim against
Defendant McMahan will be dismissed.
Williamson County’s Motion
Defendant Williamson County has also moved
for summary judgment on this issue, arguing that
the Complaint fails to contain allegations supporting
municipal liability. Municipalities are not vicariously
12 To the extent the parties have tendered expert opinions concerning this issue, no expert testimony is needed. Whether the
law on solitary confinement for juveniles was “clearly established”
is a question of law.

App.49a
liable for the actions of their employees. Bible Believers
v. Wayne Cty., Mich., 805 F.3d 228, 260 (6th Cir.
2015). To establish municipal liability under Section
1983, a plaintiff must demonstrate that the alleged
constitutional harm occurred because of a municipal
policy or custom. Burgess v. Fischer, 735 F.3d 462,
478 (6th Cir. 2013). The plaintiff must establish that
his harm was caused by a constitutional violation
and that a policy or custom of the municipality was
the “moving force” behind the deprivation of the
plaintiff’s rights. Miller v. Sanilac County, 606 F.3d
240, 255 (6th Cir. 2010). Municipalities are liable for
harms resulting from a constitutional violation only
when the injury resulted from an implementation of
the municipality’s official policies or established
customs. Miller, 606 F.3d at 255. The plaintiff must also
demonstrate a direct causal link between the policy
and the alleged constitutional violation in order to show
that the municipality’s deliberate conduct can be
deemed the “moving force” behind the violation. Abriq
v. Hall, 295 F.Supp.3d 874, 878 (M.D. Tenn. 2018).
“Official policy” often refers to formal rules or
understandings—often but not always committed to
writing—that are intended to, and do, establish
fixed plans of action to be followed under similar
circumstances consistently and over time. Spears v.
Ruth, 589 F.3d 249, 256 (6th Cir. 2009). A municipality
can be shown to have a “custom” causing constitutional
violations, even if that custom was not formally
sanctioned, provided that the plaintiff offers proof of
policymaking officials’ knowledge of and acquiescence
in the established practice. Spears, 589 F.3d at 256.
A plaintiff can make a showing of an illegal policy or
custom by demonstrating one of the following: (1) the

App.50a
existence of an illegal official policy or legislative enactment; (2) that an official with final decision making
authority ratified illegal actions; (3) the existence of
a policy of inadequate training or supervision; or (4) the
existence of a custom of tolerance of, or acquiescence
in, federal rights violations. Burgess v. Fischer, 735
F.3d 462, 478 (6th Cir. 2013).
The Complaint alleges that the policies and customs of the officials and policy makers for the juvenile
detention center were the moving force behind the
constitutional violations perpetrated against the
Plaintiff. Docket No. 1, ¶ 11. Plaintiff also alleges that
Williamson County’s deliberate indifference to the
supervision and training of juvenile detention personnel was a moving force behind the constitutional
violations perpetrated on the Plaintiff. Id., ¶ 12.
Plaintiff asserts that the “events that occurred”
constituted a continuing course of conduct of treatment
in the juvenile detention facility that violated the
constitutional rights of the Plaintiff. Id., ¶ 16. Count I
of the Complaint, “Violations of Constitutional Rights,”
however, does not mention a policy, custom or practice
of Williamson County. Docket No. 1, p. 18.
Plaintiff contends that the Complaint sufficiently
alleges that Adgent and McMahan both worked in
supervisory/policymaker roles at the Center and that
the decision to hold J.H. in solitary confinement was
made by one or both of them. Docket No. 334, p. 5. As
noted above, Plaintiff has conceded that Adgent was
not responsible for housing and classification decisions
in the Center, Docket No. 333-1, ¶ 203, and the “solitary
confinement” claims against both Defendants Adgent

App.51a
and McMahan have been dismissed.13 Moreover, Plaintiff has not alleged or shown that Williamson County
had a practice or custom of placing juvenile detainees
in “solitary confinement.” The Complaint does not
allege any other instance of a juvenile being placed
in a solitary cell so as to show a practice or custom.
Plaintiff alleges that Williamson County was
deliberately indifferent in its supervision and training
of juvenile detention personnel, resulting in the alleged
violation of Plaintiff’s right to be free from solitary
confinement. Because the court has dismissed the
claims against Adgent and McMahan for placing
Plaintiff in a single cell, the supervision and training
of Adgent and McMahan were not moving forces behind
any constitutional violation related to this placement.
Moreover, the Sixth Circuit has held that when a
municipality’s alleged responsibility for a constitutional
violation stems from an employee’s unconstitutional
act, the city’s failure to prevent the harm must be
shown to be deliberate under rigorous requirements
of culpability and causation. The violated right in a
deliberate indifference case thus must be clearly established because a municipality cannot deliberately
shirk a constitutional duty unless that duty is clear.
Arrington-Bey v. City of Bedford Heights, Ohio, 858
F.3d 988, 995 (6th Cir. 2017).
13 With regard to McMahan, even if Plaintiff’s allegation that
McMahan made the decision to place J.H. in a solitary cell is
accepted as true, there is no allegation that McMahan made that
decision pursuant to a policy of Williamson County. Plaintiff
has not pointed to a specific policy of Williamson County that
caused McMahan to take any actions related to J.H.’s housing
at the Center.

App.52a
For these reasons, Plaintiff’s claims against Williamson County with regard to the alleged solitary
confinement will be dismissed.
Denial of Medical/Mental Health Care
The Complaint alleges that Defendants specifically
and knowingly failed to assure that J.H. had adequate
medical and mental health treatment while he was
incarcerated. A prisoner’s Eighth (or Fourteenth)
Amendment right is violated when prison officials
are deliberately indifferent to the prisoner’s serious
medical needs. Quigley v. Thai, 707 F.3d 675, 681 (6th
Cir. 2013).
As noted above, a constitutional claim for deliberate indifference contains both an objective and a
subjective component. The objective component
requires a plaintiff to show the existence of a
“sufficiently serious” medical need. Burns v. Robertson
Cty., 192 F.Supp.3d 909, 920 (M.D. Tenn. 2016). A
medical need is objectively serious if it is one that
has been diagnosed by a physician as mandating
treatment or one that is so obvious that even a lay
person would easily recognize the necessity for a
doctor’s attention. Id.; Villegas, 709 F.3d at 579. To
satisfy the subjective component, a plaintiff must
show that the defendant subjectively perceived facts
from which to infer substantial risk to the prisoner,
that he did in fact draw that inference, and that he
then disregarded that risk. Quigley, 707 F.3d at 681.
The term “deliberate indifference” describes a state
of mind more blameworthy than negligence. Harrison
v. Ash, 539 F.3d 510, 518 (6th Cir. 2008).
The Complaint alleges that Defendants failed to
provide adequate medical and mental health treatment

App.53a
to J.H. while he was incarcerated. Docket No. 1, ¶ 69.14
J.H. also avers that, after the alleged sexual assault
by Defendant Cruz on December 7, 2013, he was put
back into “isolation” without any medical attention
and was not provided any counseling. Id., ¶¶ 54 and
57. Plaintiff argues that there was ample evidence in
his detention records to indicate that he suffered from
severe mental health issues. He states that Defendants
knew J.H. had a treating psychiatrist, Dr. SparksBushnell, and a neurologist, Dr. Latimer, and yet they
failed to report J.H.’s condition to either physician. He
alleges that his numerous and documented behaviors
reflected a serious need for mental health intervention.
Those behaviors were, in fact, documented for Dr.
Moore, who evaluated J.H. at The Guidance Center.
She did not recommend emergency counseling or
crisis intervention care in response.
Plaintiff has admitted that, throughout the time
he was housed at the Center, no medical provider
made any written request to Defendants for any
accommodation of Plaintiff’s diagnosis of PANDAS,15
other than his prescribed medication. Docket No.
333-1, ¶ 29. Plaintiff has admitted that personnel at
the Center administered oral antibiotics as prescribed
by J.H.’s doctor, Dr. Latimer, and psychiatric medications as prescribed by his treating psychiatrist, Dr.
Sparks-Bushnell. Id., ¶¶ 30 and 98. Plaintiff asserts
14 The Complaint also alleges that Defendants violated the PREA
by failing to provide adequate medical care (Docket No. 1, ¶ 62k),
but the PREA claim has been dismissed.
15 PANDAS stands for Pediatric Autoimmune Neuropsychiatric
Disorders Associated with Streptococcal Infections. Docket No.
1, ¶ 20.

App.54a
that his mother gave a handwritten note to detention
personnel regarding his medication, but McMahan
testified that detention personnel followed the instructions of physicians on the prescription bottle, not notes
provided by a detainee’s mother. Id., ¶¶ 100-101;
Docket No. 344, ¶ 82.16 Plaintiff’s mother also told
detention personnel that she was supposed to be
adjusting J.H.’s medications and experimenting based
upon his reactions, but she produced no medical
documentation supporting this contention, and the
detention staff was required to give medication based
upon medical direction. Id., ¶ 118.
Plaintiff was examined at the Center by a
licensed practical nurse on December 5, 2013. Docket
No. 333-1, ¶ 96. He was taken by detention staff to
undergo an MRI ordered by Dr. Latimer and transported by detention staff to an appointment with his
treating psychiatrist. Id., ¶¶ 27 and 104. Plaintiff
complains that McMahan did not make arrangements
for J.H. to attend one of his appointments with Dr.
Latimer, but that appointment was after Guffee’s
Order requiring J.H. to remain detained in a single
cell. McMahan had no authority to release him
without another court order.17
Plaintiff’s parents did not request counseling for
him after the alleged assault. Docket No. 333-1, ¶ 166.
Plaintiff’s mother stated that she did not know of any
16 Indeed, the reason J.H.’s mother’s visits were restricted by
Judge Guffee is because she attempted to bring him medication
not prescribed for him. Docket No. 333-1, ¶ 88.
17 Plaintiff agreed that Judge Guffee’s November 22, 2013 Order
blocked him from attending a December 5, 2013 appointment
with Dr. Latimer. Docket No. 333-1, ¶ 90.

App.55a
request by J.H.’s attorney, his guardian ad litem, or
his advocate from the Disability Law Advocacy Center
that Defendants provide counseling to J.H. after the
alleged assault. Id., ¶ 165. J.H. did see a psychologist
at The Guidance Center, Dr. Moore, who conducted a
court-ordered evaluation of J.H. after the alleged
assault. She did not recommend any emergency
counseling or crisis intervention care for J.H. Id.,
¶¶ 189 and 193.
In this Circuit, providing grossly inadequate
medical care to an involuntary detainee may amount
to deliberate indifference. Burns, 192 F.Supp.3d at
920. In Burns, the detainee committed suicide while
in detention. The court stated that mental illness that
places an individual at risk of committing suicide satisfies the objective component of a deliberate indifference
claim. Id., p. 921. There is no indication here that
J.H. was at risk of committing suicide or that he did,
in fact, attempt to harm himself in any way.
In Quigley, the plaintiff alleged that the prison
psychiatrist caused an inmate’s death through reckless
and grossly negligent care resulting in a fatal drug
interaction. Quigley, 707 F.3d at 677-78. The inmate
was given two medications for his depression. Medical
experts testified that the two drugs exponentially
increased the potency of one another, led to toxic
levels and were deadly. Id. at 682. The court found a
genuine issue of material fact as to whether the
prison psychiatrist consciously exposed the patient to
an excessive risk of serious harm. Id. Here, there is
no allegation that Defendants created or allowed a
similarly serious risk of harm or that J.H. did, in fact,
suffer anything close to death.

App.56a
In fact, Plaintiff’s evidence of harm caused by
any failure to provide medical/mental health care is
weak. J.H.’s treating psychiatrist’s records indicate
that, on December 6, 2013, after he had been in the
Center for several weeks, Plaintiff was calm, his
paranoia was “much better,” his compulsions to engage
in bad behavior had gone from a ten out of ten to a
zero out of ten, and he no longer felt the need to
secretly hoard his medication and take several doses
at once. Docket No. 333-1, ¶ 105. The Complaint alleges
that Dr. Sparks-Bushnell opined, on December 6,
2013, that J.H.’s psychotic symptoms had dramatically
reduced after his IVIG (intravenous immunoglobulin)
treatments prescribed by Dr. Latimer. Docket No. 1,
¶ 44. The competency evaluation by Dr. Moore, dated
December 17, 2013, indicates that J.H. did not
evidence delusional thoughts or beliefs and that he
was competent to proceed to adjudication. Docket No.
344, ¶ 252. In addition, the medical records of Dr.
Latimer from December 20, 2013 state that J.H.
appeared more calm and in less distress. Id.
Even in cases where prison officials actually
know of a substantial risk to inmate health and safety,
they may nonetheless be found free from liability if
they reasonably respond to the risk. Harrison, 539
F.3d at 519 (citing Farmer v. Brennan, 511 U.S. 825,
844 (1994)). The court finds that it was reasonable
for Adgent and McMahan to follow the instructions
of medical providers concerning J.H.’s medication and
to believe that any additional counseling or mental
health treatment would be set up by J.H.’s parents or
guardian ad litem or ordered by his medical providers.
J.H. was under the care of at least two private
physicians, presumably paid for by his parents. It is

App.57a
not unconstitutional for municipalities and their
employees to rely on medical judgments made by
medical professionals concerning inmate care. Graham
v. County of Washtenaw, 358 F.3d 377, 384 (6th Cir.
2004). Here, Defendants relied on the medical judgments, prescriptions and directions from J.H.’s treating
psychiatrist, his PANDAS doctor, and a counselor at
The Guidance Center.
Plaintiff was provided medical and mental health
treatment while he was at the Center. That treatment
may not have been exactly what his mother wanted,
but he was provided treatment, and there is no
medical evidence of harm from that treatment.18
For these reasons, Plaintiff’s Motion on the issue of
medical and mental health services will be denied,
and Defendants’ Motions on this issue will be
granted. Plaintiff’s claims for denial of medical and
mental health services will be dismissed.
Alleged Sexual Assault
Plaintiff’s Motion
Plaintiff alleges that Defendant Cruz violated
his constitutional rights19 by sexually assaulting him
on December 7, 2013, while he and Cruz were cleaning
the intake room. The Complaint alleges that, as a
result of this assault, J.H. suffered “emotional decom18 Plaintiff cites to the deposition of Ann Nelsen concerning the
lack of screening, assessments, and other medical care and
mental health services provided to Plaintiff, but both Nelsen
and Plaintiff have admitted that Nelsen is not a medical expert.
(Docket No. 308-38, p. 39; Docket No. 333-1, ¶ 198).
19 There is no state law claim in the Complaint for sexual assault.

App.58a
pensation” and, four days later, his anxiety level was
“exaggerated.” Docket No. 1, ¶¶ 54 and 58. Plaintiff’s
Motion for Summary Judgment asks the court to find
that Cruz sexually assaulted Plaintiff. Clearly there
are genuine issues of material fact as to this issue.
Cruz has maintained since the alleged assault
that he did not, at any time, assault J.H. Plaintiff is
unable to show that there are no genuine issues of
material fact with regard to the alleged assault or
that he is entitled to judgment as a matter of law on
this issue. Accordingly, Plaintiff’s Motion as to the
alleged sexual assault Cruz will be denied.
Because there are disputed facts as to this
alleged assault, Plaintiff also is not entitled to summary
judgment on his claim against Williamson County,
Adgent and McMahan for failure adequately to train
or supervise Cruz so as to prevent a sexual assault.
If no sexual assault occurred, nothing about the
training or supervision or lack thereof was a proximate
cause of any harm. Therefore, Plaintiff’s Motion for
Summary Judgment against all Defendants will be
denied.
Adgent and McMahan’s Motions
Plaintiff’s claims concerning the hiring of Defendant Cruz have been dismissed. In addition, Plaintiff
has agreed that his claims for failure to train and
supervise are against Adgent and McMahan in their
official capacities only, so those claims are against
the county. Therefore, there are no claims for failure
to train and supervise against Adgent and McMahan
individually, their Motions for Summary Judgment
as to those claims will be granted, and those claims,

App.59a
against them in their individual capacities, will be
dismissed.20
County’s Motion
As noted, Plaintiff’s claim against Williamson
County concerning the hiring of Defendant Cruz has
been dismissed. There are genuine issues of material
fact as to whether this alleged sexual assault actually
occurred. Even accepting that it did occur, however,
in order to show municipal liability, Plaintiff must
still demonstrate that the alleged assault was
proximately caused by a policy, practice or custom of
Williamson County.21 Certainly Williamson County
had no policy that juvenile detention personnel should
sexually assault detainees. Plaintiff’s claim is that
Williamson County failed to train and supervise Cruz,
resulting in the alleged assault.
To state a municipal liability claim under an
“inaction” theory like this, Plaintiff must establish:
(1) the existence of a clear and persistent pattern of
sexual assault by Center employees or by Cruz in
particular; (2) notice or constructive notice on the
part of the County; (3) the County’s tacit approval of
the unconstitutional conduct such that its deliberate
20 The Complaint purports to allege a claim against Adgent and
McMahan in their personal capacities for “their negligence in
the hiring, training, retention, and supervision of Juan Cruz.
Docket No. 1, ¶ 15. It is well established that negligence does not
give rise to a constitutional violation. Dotson v. Correctional
Medical Services, 584 F.Supp.2d 1063, 1067 (W.D. Tenn. 2008).
21 A municipality cannot be held liable for constitutional violations based solely on a respondeat superior theory. Radvansky
v. City of Olmsted Falls, 395 F.3d 291 (6th Cir. 2005) (citing
Monell v. Dep’t of Soc. Servs, 436 U.S. 658, 691 (1978)).

App.60a
indifference in its failure to act can be said to amount
to an official policy of inaction; and (4) the County’s
policy or custom of inaction was the moving force or
direct causal link in the constitutional deprivation.
Doe v. Claiborne County, Tenn., 103 F.3d 495, 508 (6th
Cir. 1996). The evidence must show that the need to
act is so obvious that the municipality’s decision not
to act can be said to amount to a policy of deliberate
indifference to the plaintiff’s constitutional rights.
Cole v. City of Memphis, 97 F.Supp.3d 947, 959
(W.D. Tenn. 2015) (citing Doe, 103 F.3d at 508).
As indicated above, to be “deliberately indifferent,”
an official must know of, and disregard, a substantial
risk of serious harm facing the detainee. The evidence
must show that the need to act is so obvious that the
defendant’s “conscious” decision not to act can be said
to amount to a “policy” of deliberate indifference to the
plaintiff’s constitutional rights. Doe, 103 F.3d at 508.
Even if the court accepts that the assault occurred,
Plaintiff has failed to show that Williamson County
knew of any substantial risk of Cruz sexually assaulting J.H. In other words, Plaintiff has failed to show
notice or constructive notice to the County that such
an incident would likely occur. Plaintiff has shown
no pattern or practice of any sexual assaults at the
Center, let alone any such assaults by Defendant Cruz.
Plaintiff contends that the County created an
“intolerably dangerous exposure” to sexual assault,
but he fails to establish how this occurred. Plaintiff has
not shown facts to support that any prior misconduct
by Cruz would have provided actual or constructive
notice to the County. Plaintiff has also failed to show
that any other sexual assaults occurred at the Center
or that Defendants had notice of a substantially

App.61a
serious risk of such misconduct. The court finds that
Plaintiff has failed to demonstrate, for purposes of
summary judgment, that, even if this alleged assault
did occur, any policy, custom or practice of Williamson
County was the “moving force” behind that assault.
Accordingly, Williamson County’s Motion for Summary
Judgment on this issue will be granted.
Conclusion
For the reasons stated herein, Plaintiff’s Motion
for Summary Judgment (Docket No. 305) will be
denied; Defendant Williamson County’s Motion for
Judgment on the Pleadings or, Alternatively, Motion for
Summary Judgment (Docket No. 310) will be granted;
Defendant McMahon’s Motion for Judgment on the
Pleadings or, Alternatively, Motion for Summary Judgment (Docket No. 311) will be granted; and Defendant
Adgent’s Motion for Judgment on the Pleadings or,
Alternatively, Motion for Summary Judgment (Docket
No. 312) will be granted.
Accordingly, Plaintiff’s claims for violations of
the Fourteenth Amendment for placement in solitary
confinement, denial of medical and mental health
services, and for sexual assault against Defendants
Williamson County, Adgent and McMahan will be dismissed. The remaining claim is Plaintiff’s claim against
Defendant Cruz for violation of his constitutional
rights by sexually assaulting him.
IT IS SO ORDERED.
ENTER this 5th day of July 2018.
/s/ Aleta A. Trauger
United States District Judge

App.62a
ORDER OF THE
UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF TENNESSEE
(JULY 5, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
________________________
J.H., by Conservator BETTY HARRIS,

Plaintiff,
v.
WILLIAMSON COUNTY, TENNESSEE,
BETSY ADGENT, STEVE MCMAHAN,
and JUAN CRUZ,

Defendants.

________________________
No. 3-14-2356

Before: Aleta A. TRAUGER,
United States District Judge.
Pending before the court are Plaintiff’s Motion for
Summary Judgment (Docket No. 305); Defendant
Williamson County’s Motion for Judgment on the Pleadings or, Alternatively, Motion for Summary Judgment
(Docket No. 310); Defendant McMahon’s Motion for
Judgment on the Pleadings or, Alternatively, Motion for
Summary Judgment (Docket No. 311); and Defendant
Adgent’s Motion for Judgment on the Pleadings or,

App.63a
Alternatively, Motion for Summary Judgment (Docket
No. 312).
For the reasons stated in the accompanying Memorandum, Plaintiff’s Motion for Summary Judgment
(Docket No. 305) is DENIED; Defendant Williamson
County’s Motion for Judgment on the Pleadings or,
Alternatively, Motion for Summary Judgment (Docket
No. 310) is GRANTED; Defendant McMahon’s Motion
for Judgment on the Pleadings or, Alternatively,
Motion for Summary Judgment (Docket No. 311) is
GRANTED; and Defendant Adgent’s Motion for Judgment on the Pleadings or, Alternatively, Motion for
Summary Judgment (Docket No. 312) is GRANTED.
Accordingly, Plaintiff’s claims for violations of the
Fourteenth Amendment for placement in solitary confinement, denial of medical and mental health services,
and for sexual assault against Defendants Williamson
County, Adgent and McMahan will be dismissed. The
remaining claim is Plaintiff’s claim against Defendant
Cruz for violation of his constitutional rights by
sexually assaulting him.
IT IS SO ORDERED.
ENTER this 5th day of July 2018.
/s/ Aleta A. Trauger
United States District Judge

App.64a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE SIXTH CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(APRIL 20, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
J.H., by Conservator BETTY HARRIS,

Plaintiff-Appellant,
v.
WILLIAMSON COUNTY, TENNESSEE;
STEVE MCMAHAN; BETSY ADGENT,

Defendants-Appellees.

________________________
No. 18-5874

Before: COLE, Chief Judge,
STRANCH and READLER, Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for rehearing and concludes that the issues raised in the petition
were fully considered upon the original submission
and decision of the case. The petition then was
circulated to the full court. No judge has requested a
vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

App.65a
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Clerk

